HHS/OIG, Audit - "Administrative Costs Projected by Windsor Health Plan
of TN for Calendar Year 2007," (A-04-07-06001)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Administrative Costs Projected
by Windsor Health Plan of TN for Calendar Year 2007," (A-04-07-06001)
June 29, 2007
Complete
Text of Report is available in PDF format (477 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether
Windsor Health Plan of TN, Inc.s (Windsor)
anticipated administrative costs were actuarially supported and reasonably and
equitably reflected revenue requirements in accordance with Federal
regulations.  Bid summary forms submitted by Windsor contained revenue
estimates, including administrative costs, required for each plan.  Windsor
projected $24,517,598 in administrative costs
for calendar year 2007 that were actuarially supported and reasonably and
equitably reflected revenue requirements in accordance with Federal
regulations.  Therefore, we did not make any recommendations.